               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00026-317




       Community Based Outpatient 

              Clinic Reviews 

                     at 

       Fargo VA Health Care System 

                Fargo, ND 





September 16, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                      CBOC Reviews at Fargo VA HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Health Care System
                       IT       information technology
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       OI&T     Office of Information & Technology
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                         CBOC Reviews at Fargo VA HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 23 Director Comments .............................................................................                     12

  B. Fargo VA HCS Director Comments ...................................................................                          13

  C. OIG Contact and Staff Acknowledgments .........................................................                             17

  D. Report Distribution .............................................................................................           18





VA OIG Office of Healthcare Inspections
                                                                CBOC Reviews at Fargo VA HCS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of July 22, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name             Location
                                           Bemidji               Bemidji, MN
      23        Fargo VA HCS
                                           Fergus Falls          Fergus Falls, MN
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians administer pneumococcal vaccines when indicated.

	 Ensure that clinicians document all required tetanus vaccine administration elements
   and that compliance is monitored.

	 Ensure that auditory privacy is maintained during the check-in process at the Bemidji
   and Fergus Falls CBOCs.

	 Ensure that the Chief of OI&T implements required measures at the Bemidji and
   Fergus Falls CBOCs.


VA OIG Office of Healthcare Inspections                                                   i
                                                        CBOC Reviews at Fargo VA HCS


	 Ensure that managers develop a local policy for MH emergencies that reflects the
   current risk, practice, and capability at the Bemidji CBOC.

Comments
The VISN and Facility Director concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 12–16, for the
Directors’ comments). We will follow up on the planned actions until they are
completed.




                                                JOHN D. DAIGH, JR., M.D.
                                               Assistant Inspector General for
                                                    Healthcare Inspections




VA OIG Office of Healthcare Inspections                                           ii
                                                                           CBOC Reviews at Fargo VA HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                               CBOC Reviews at Fargo VA HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                         CBOC Reviews at Fargo VA HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN            Parent Facility                  CBOC Name                 Locality6                                                  CBOC Size8
                                                                                              20127                  20127
    23          Fargo VA HCS                         Bemidji                 Rural             2,675                11,595              Mid-Size
                                                  (Bemidji, MN)
                                                    Bismarck                 Urban               3,621              13,857              Mid-Size
                                                (Bismarck, ND)
                                                   Fergus Falls              Rural               1,563               6,074              Mid-Size
                                              (Fergus Falls, MN)
                                                     Grafton                 Rural                950                3,296                Small
                                                  (Grafton, ND)
                                                   Grand Forks               Rural               2,825              10,091              Mid-Size
                                              (Grand Forks, ND)
                                                      Minot                  Rural               2,415              10,289              Mid-Size
                                                   (Minot, ND)
                                                    Williston                Rural               1,007               2,940                Small
                                                 (Williston, ND)
                                                               Table 2.     Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                             CBOC Reviews at Fargo VA HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 22 patients who received a cervical cancer screening at the Fargo VA
HCS’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 22 EHRs of patients who had normal cervical cancer
screening results and determined that 3 patients were not notified within the required
14 days from the date the pathology report became available.




9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                            CBOC Reviews at Fargo VA HCS


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
           X          Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals who have never had a
pneumococcal vaccination should receive one.13 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of four patients with pre-
existing conditions who received their first vaccine prior to the age of 65. We did not
find documentation in any of the EHRs indicating that their second vaccination had been
administered.

12
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
13
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                             CBOC Reviews at Fargo VA HCS


Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.14 We reviewed the EHRs of 10 patients who received a
tetanus vaccine administration at the parent facility or its associated CBOCs and did not
find documentation of all the required information related to tetanus vaccine
administration in 2 of the EHRs.

Recommendations

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.




14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                6
                                                                       CBOC Reviews at Fargo VA HCS



                                 Onsite Reviews 

                         Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                                Bemidji                        Fergus Falls
 VISN                                             23                               23
 Parent Facility                             Fargo VA HCS                     Fargo VA HCS
 Types of Providers                    Licensed Clinical Social          Licensed Clinical Social
                                               Worker                            Worker
                                          Nurse Practitioner                Nurse Practitioner
                                             Pharmacist                    Physician Assistant
                                         Physician Assistant
 Number of MH Uniques,                           346                                 247
 FY 2012
 Number of MH Visits, FY                          2,222                             1,211
 2012
 MH Services Onsite                                Yes                               Yes
 Specialty Care Services                          None                              None
 Onsite
 Ancillary Services                        Electrocardiogram                Electrocardiogram
 Provided Onsite                              Laboratory                       Laboratory
 Tele-Health Services                        Endocrinology                    Endocrinology
                                                  MH                               MH
                                                MOVE15                            MOVE
                                               Neurology                        Neurology
                                             Rheumatology                     Primary Care
                                                                              Rheumatology
                                         Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                             7
                                                                CBOC Reviews at Fargo VA HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                             CBOC Reviews at Fargo VA HCS


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
     Bemidji        Privacy was maintained.
   Fergus Falls
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.




VA OIG Office of Healthcare Inspections                                                 9
                                                                           CBOC Reviews at Fargo VA HCS


          NC                                Areas Reviewed (continued)
        Bemidji         IT security rules were adhered to.
      Fergus Falls
                        There was alcohol hand wash or a soap dispenser and sink available
                        in each examination room.
                        Sharps containers were less than 3/4 full.
                        Safety needle devices were available for staff use (e.g., lancets,
                        injection needles, phlebotomy needles).
                        The CBOC was included in facility-wide EOC activities.
                                                 Table 7. EOC

Auditory Privacy. Auditory privacy was inadequate for patients during the check-in
process at the Bemidji and Fergus Falls CBOCs. Patients communicated with staff at
open counters located in the waiting areas. The check-in stations permitted two clerks
to simultaneously assist patients. Patients are asked to provide personal information
including their name, date of birth, and last four of their social security number.
Communication between the patients and clerks could be easily heard by other patients
and visitors.

IT Security. According to VA, this locked location must contain equipment or
information critical to the information infrastructure.17 Also, an access log must be
maintained that includes name and organization of the person visiting, signature of the
visitor, form of identification, date of access, time of entry and departure, purpose of
visit, and name and organization of person visited. Lack of oversight for IT space
access and sharing of allocated IT space could lead to potential loss of secure
information. All staff had unrestricted access to the key to the Bemidji CBOC IT closet.
We inspected this IT closet and found other supplies (such as excess chairs) stored in
the closet. Additionally, access logs to the IT closets were not maintained at the Bemidji
and Fergus Falls CBOCs.

Recommendations

4. We recommended that auditory privacy is maintained during the check-in process at
the Bemidji and Fergus Falls CBOCs.

5. We recommended that the Chief of OI&T implements required measures at the
Bemidji and Fergus Falls CBOCs.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.18 Table 8 shows the areas
reviewed for this topic. The CBOC identified as NC needed improvement. Details
regarding the finding follow the table.

17
     VA Handbook 6500, Information Security Program, September 18, 2007.
18
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                             10
                                                                 CBOC Reviews at Fargo VA HCS


        NC                                      Areas Reviewed
                     There was a local medical emergency management plan for this
                     CBOC.
                     The staff articulated the procedural steps of the medical emergency
                     plan.
                     The CBOC had an automated external defibrillator onsite for cardiac
                     emergencies.
                     There was a local MH emergency management plan for this CBOC.
      Bemidji        The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

Local SOP. At the Bemidji CBOC, staff reported leaving exam room doors open and
the use of police standby for potentially disruptive patients as part of their MH
emergency plan however; local policy does not include these steps.

Recommendation

6. We recommended that managers develop a local policy for MH emergencies that
reflects the current risk, practice, and capability at the Bemidji CBOC.




VA OIG Office of Healthcare Inspections                                                   11
                                                              CBOC Reviews at Fargo VA HCS
                                                                                Appendix A

                              VISN 23 Director Comments


               Department of
               Veterans Affairs                               Memorandum


       Date:            August 29, 2013 


       From:            Director, VISN 23 (10N23) 


       Subject:         CBOC Reviews at Fargo VA HCS 


       To:              Director, 54SE Healthcare Inspections Division (54SE)


                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)



       The purpose of this Memorandum is to submit the Director’s comments to
       Office of Inspector General’s Draft Report of CBOC Review of the Fargo
       VA Health Care System, Fargo, ND.


       (original signed by)
       Janet P. Murphy, MBA




VA OIG Office of Healthcare Inspections                                                12
                                                            CBOC Reviews at Fargo VA HCS
                                                                              Appendix B

                      Fargo VA HCS Director Comments



               Department of
               Veterans Affairs                            Memorandum


       Date:            August 29, 2013

       From:            Director, Fargo VA HCS (437/00)

       Subject:         CBOC Reviews at Fargo VA HCS

       To:              Director, VISN 23 (10N23)



       1. The purpose of this Memorandum is to submit the Director’s comments
          to the Office of Inspector General’s Draft Report of CBOC Review at
          the Fargo VA Health Care System, Fargo, ND.

       2. If you have any questions or would like to discuss this response,
          please contact me at 701-239-3701.



         (original signed by)
       DALE P. DEKREY, MS
       Acting Medical Center Director




VA OIG Office of Healthcare Inspections                                              13
                                                              CBOC Reviews at Fargo VA HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: December 12, 2013

Facility Response: The process for timely (within 14 days) patient notification of cervical
cancer screen results will be enhanced to include:

Implementation of a standardized “Women’s Health Letter” to inform patients of cervical
screening and mammogram results.

PACT teams have created a tracking tool that focuses on cervical cancer and
mammogram results to ensure that results are communicated to the patients. This tool
will be put in place for all CBOC’s.

Monthly audits will be conducted to assess that the timeliness of cervical cancer screen
results are getting to patients within the 14 day timeframe, with the expectation that 90%
compliance is achieved for 3 consecutive months. Results will be reported to the
Organizational Performance Council (OPC).

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

Concur

Target date for completion: April 16, 2014

Facility Response: Develop and implement clinical reminder to reflect the current CDC
recommendations for pneumovax vaccination and revaccination.

Monthly audits will be conducted to assess administration of vaccine when indicated,
with the expectation that 90% compliance is achieved for 3 consecutive months. Results
will be reported to the Organizational Performance Council (OPC).


3. We recommended that managers ensure that clinicians document all required
tetanus vaccine administration elements and that compliance is monitored.


VA OIG Office of Healthcare Inspections                                                 14
                                                              CBOC Reviews at Fargo VA HCS


Concur

Target date for completion: November 15, 2013

Facility Response: Staff training will be conducted on the documentation requirements
for the tetanus vaccine, to include the mandatory elements.

Monthly audits will be conducted to assess compliance of required documentation, with
the expectation that 90% compliance is achieved for 3 consecutive months. Results will
be reported to the Organizational Performance Council (OPC).

4. We recommended that auditory privacy is maintained during the check-in process at
the Bemidji and Fergus Falls CBOCs.

Concur

Target date for completion: August 15, 2014

Facility Response: A remodel/construction project for Bemidji will add a third check in
desk to the current reception area which will enhance patient privacy.

Due to the limited size of the Fergus Falls clinic, remodeling is not an option. Education
will be conducted to make staff more aware of auditory privacy concerns and strategies
to utilize to protect privacy.

5. We recommended that the Chief of OI&T implements required measures at the
Bemidji and Fergus Falls CBOCs.

Concur

Target date for completion: December 15, 2013

Facility Response: A sign in log will be developed and will be placed inside the IT
closets at all CBOC facilities. IT policies for physical security control will be located
inside each IT closet for reference.

Staff education will be conducted on the process of accessing IT closets.

Cameras will be utilized to monitor motion within the IT closets; IT will assess each
camera unit for proper operation and will repair or replace units if not working properly.

A select and limited number of staff will be identified at both CBOC’s who will have
access to the IT keys per the guidelines.

The process will be monitored by way of quarterly on-site reviews, conducted by the IT
staff; sign sheets will be reviewed to assess access by appropriate staff/visitors.




VA OIG Office of Healthcare Inspections                                                   15
                                                           CBOC Reviews at Fargo VA HCS


6. We recommended that managers develop a local policy for MH emergencies that
reflects the current risk, practice, and capability at the Bemidji CBOC.

Concur

Target date for completion: December 16, 2013

Facility Response: Based on the police security risk assessment, plans are in place to
install panic buttons in every patient room.

A Standard Operating Procedure (SOP) will be developed for Bemidji CBOC to address
the current risk and response plan for MH emergencies.

100% of the MH emergencies will be reported and reviewed by the Disruptive Behavior
Committee (DBC). Recommendations will be discussed with the Bemidji CBOC.




VA OIG Office of Healthcare Inspections                                              16
                                                              CBOC Reviews at Fargo VA HCS
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Susan Tostenrude, MS, Team Leader
Contributors            Sarah Lutter, RN, JD
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Marc Lainhart, BS
                        Sami O’Neill, MA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  17
                                                          CBOC Reviews at Fargo VA HCS
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 23 (10N23)
Director, Fargo VA HCS (437/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Al Franken, Heidi Heitkamp, John Hoeven, Amy Klobuchar
U.S. House of Representatives: Kevin Kramer, Collin C. Peterson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              18
